No.

 

IN THE SUPREME COURT OF THE UNITED STATES

 

OCTOBER TERM, 2020

 

BRANDON LAMONTE SORENSON,
Petitioner,

ve.

UNITED STATES OF AMERICA,
Respondent.

 

CERTIFICATE OF SERVICE

hereby certify and declare that true and exact copies of the Petition for Writ of Certiorari
to the United States Court of Appeals of the Ninth Circuit and Motion for Leave to Proceed in
Forma Pauperis were mailed, first-class postage prepaid, this 1st day of February, 2021, to all
parties required to be served as follows: Solicitor General, Department of Justice, Washington,
D.C., 20530; Timothy A. Tatarka, Assistant United States Attorney, 2601 2° Avenue N., Unit

3200, Billings, MT 59106; and Mr. Brandon Lamonte Sorenson, 3124 203" Street SW, Lynnwood,

fo:

ANTH! . GALLAGHER
Federal Defender for the District of Montana
*RACHEL JULAGAY,
Assistant Federal Defender
104 Second Street South, Suite 301
Great Falls, MT 59401
Telephone: (406) 727-5328
Fax: (406) 727-4329
*Counsel of Petitioner

WA 98036.

 
